United States Supreme Court
Clerk Of Court
1 first street NE
Washington DC 20543
July 18, 2021

ATTN clerk of court;

I Jamaal Gittens certify I sent defendant Melissa T Pavlack notice of appeal at 455 W Hamilton
street Allentown PA 18101-1614

Sincerely

Jamaal A Gittens

Type or printed notary name

1206 Marlene Street

Seal

Charlotte NC 28208

- Place Notary Signature Above -

(704) 975-8173
My commission expires
Date

RECEIVED
AUG 2't 2021
Page 1 of 1

il

